                                     Office of Inspector General
                                    Corporation for National and
                                             Community Service




B
r     AUDITOF CORPORATIONFOR NATIONAL
                                    AND
I     COMMUNITY SERVICEGRANTS AWARDED
0
"       THE OHIO COMMUNITYSERVICECOUNCIL
i
                  OIG REPORT
                           NUMBER
                                05-13




                                                     COMMUNITY
                                                     SERVICEEIZ




                             Prepared by:

                    Leon Snead & Company, P.C.
                   416 Hungerford Drive, Suite 400
                      Rockville, Maryland 20850




     This report was issued to Corporation management on February 24, 2005.
     Under the laws and regulations governing audit follow-up, the Corporation is to
ir   make final management decisions on the report's findings and
'
     recommendations no later than August 24, 2005, and complete its corrective
     actions by February 24, 2006. Consequently, the reported findings do not
     necessarily represent the final resolution of the issues presented.
                                 Office of Inspector General
                       Corporation for National and Community Service
                                     Audit Report 05- 13

   Audit of Corporation for National and Community Service Grants Awarded to the Ohio
                                Community Service Council
OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Leon Snead and Company, P.C. (Snead) to perform an incurred-cost
audit of grants awarded to the Ohio Community Service Council (Council).

In accordance with our statutory responsibilities, we reviewed Snead's report and related audit
documentation, interviewed their representatives, and performed other procedures as we deemed
appropriate in the circumstances to provide reasonable assurance that the audit was performed in
accordance with generally accepted government auditing standards. Our review was not
intended to enable us to express, and we do not express, opinions on the Council's Consolidated
Schedule of Award Costs, internal controls or conclusions on compliance with laws and
regulations. Snead is responsible for the attached reports dated October 29,2004, and the
conclusions expressed therein. However, our review disclosed no instances where Snead did not
comply, in all material respects, with generally accepted government auditing standards.

For the grants audited, the Council claimed costs of $22,058,184 of which the auditors
questioned $178,93 1 of unallowable claimed costs and $25,796 of education awards. The
auditors questioned approximately 1 percent of claimed costs. Costs questioned for allowability
represent amounts for which documentation shows that recorded costs were expended in
violation of regulations or specific award conditions, or costs that require an interpretation of
allowability. The auditors also noted two instances of noncompliance with provisions of Federal
laws, regulations and grant award provisions, and three internal control findings.

The Council generally agreed with the audit report's conclusions. However, it disagreed with the
auditors' questioning costs for lack of member criminal background checks and expressed the
opinion that the issue should only be a compliance finding. These comments and the Council's
corrective actions will be reviewed by the Corporation as part of the audit resolution process.

The Office of Inspector General provided officials of the Ohio Community Service Council and
the Corporation with a draft of this report for their review and comment. Their responses are
included as Appendices A and B, respectively.
                                                         TABLE OF CONTENTS



Results in Brief ................................................................................................................................1

Objectives of Audit .......................................................................................................................... 2

Scope of Audit ................................................................................................................................     2

Background ......................................................................................................................................   4

Independent Auditor's Report .......................................................................................................... 5

Consolidated Schedule of Award Costs ........................................................................................... 7

Schedule A .Claimed and Questioned Costs (00ASCOH036) ....................................................... 8

Schedule B .Claimed and Questioned Costs (03ACHOH001).....................................................10

Schedule C .Claimed and Questioned Costs (00ASFOH036) ......................................................11

Schedule D .Claimed and Questioned Costs (03AFHOH002) ..................................................... 13

Schedule E .Claimed and Questioned Costs (OlAPSOH036) ...................................................... 14

Schedule F .Claimed and Questioned Costs (02SVHOH012) ..................................................... 15

Independent Auditor's Report on Compliance and Internal Controls ........................................... 17

Compliance Findings ..................................................................................................................... 18

Internal Control Over Financial Reporting .................................................................................... 20

Follow-up on Prior Audit .............................................................................................................. 24

Responses to Report

      Ohio Community Service Council ........................................................................... Appendix A


                           f
      Corporation f r National and Community Service .................................................. Appendix B
                            !
LEON SNEAD
& COMPANY, PC.
11b Hungcrford Drlve, S u ~ t 100
                              e
Rock\,~lle,Maryland 20850
301 -738-8190
     30 1-738-8210
Ieonvwad cornpanypc@erol\ com




           Office of Inspector General
           Corporation for National and Community Service
           Washington, DC 20525




           addresses the costs questioned as a result of the audit;
           laws, regulations or award conditions; and weaknesses
                                                                          1
           This report is issued under an engagement to audit the co ts incurred by the Ohio Community
           Service Council (Council) and its subgrantees from January , 2002, through June 30, 2004, under
           grants awarded by the Corporation for National and Commu ity Service (Corporation). The report
                                                                           of noncompliance with Federal
                                                                             the internal control systems of
           the Council and its subgrantees.

                                                       Results in Brief

           As a result of our audit, we have questioned costs of                  unallowable claimed costs and
           $25,796 of education awards.The questioned claimed                 approximately 1 percent of the total
           of $22,058,184 in costs claimed by the Council.                        are: (1) costs for which there is
           documentation that the recorded costs were                             of Federal laws, regulations or
           specific conditions of the award, (2) costs                             documentation support by the
           grantee, or (3) costs that require                                     the Corporation. The claimed
           costs were questioned for the following reasons.

                              Inadequate Support for Costs Claimed by              ($1 15,488)
                              Eligibility Requirements Not Supported                    ($63,443)
                              Education Awards Not Supported by




                                                                          1
           We used non-statistical sampling to test the costs claimed y the Council for compliance with its
           award agreements with the Corporation and other Federal r quirements. Based on this sampling,
           questioned costs detailed in this report may not represent tot 1 costs that may have been questioned
           had all expenditures been tested. In addition, we made no a tempt to project such questioned costs
           to total costs claimed.

                                                         Compliance

            Our review of the Council's compliance with Federal                applicable regulations and award
            conditions disclosed the following instances of
          Americorps Provisions.                            C
          The Council did not close out four of five grants ithin the time frame specified by the

          Five of the AmeriCorps subgrantees reviewed did not maintain the required
          documentation to support their members' eligibility for participation or to meet other
          program requirements. The missing or incomplete documents included:

          0   Proof of eligibility documentation (citizenship and age);
              Criminal record checks;
              Position descriptions;
              Signed member contracts;
              Mid-termlfinal evaluations;
              Enrollment forms; and
              Exit forms.

                                        Internal Controls

Our audit disclosed three weaknesses in the internal control systems of the Council and its
subgrantees:

       The Council did not have a formalized written accounting manual.
       One subgrantee did not maintain an adequate financial management system.
       One subgrantee did not maintain adequate separation of duties among its accounting
       personnel.

                                 Obiectives And Scope Of Audit

The principal objectives of our audit were to determine whether:

           Financial status reports (FSRs) prepared by the Council presented fairly the financial
           results of the awards;
           The Council's internal controls were adequate to safeguard Federal funds;
           The Council and its subgrantees had adequate procedures and controls to ensure
           compliance with Federal laws, applicable regulations, and award conditions;
           Award costs reported to the Corporation by the Council were documented and allowable
           in accordance with the award terms and conditions; and
           The Council had established adequate oversight procedures and had informed
           subgrantees of the Corporation's Government Performance and Results Act (GPRA)
           goals.

We performed the audit in accordance with auditing standards generally accepted in the United
States of America and generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain reasonable assurance about whether the costs claimed
against the awards, as presented in the Consolidated Schedule of Award Costs, are free of material
misstatement. An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the Schedules. An audit also includes assessing the accounting principles used and
significant estimates made by the Council's management, as well as evaluating the overall financial
schedule presentation. Our audit included reviews of audit reports prepared by independent public
accountants for the Council and its subgrantees in accordance with the requirements of OMB
Circular A-133, Audits of States, Local Governments and Non-proJit Organizations. We also
followed up on the findings and recommendations that had been presented to the Council in a prior
audit report dated January 17,2003 (Audit Report No. 03-05).

With regard to GPRA, AmeriCorps grantees and subgrantees provide progress reports to the
Corporation that are maintained in the Web-Based Reporting System (WBRS). The Corporation
develops prograq reporting guidelines that derive from its Federal reporting requirements. The
Council does not make continuation grants available to subgrantees that do not meet program
objectives, unless extenuating circumstances prevented subgrantees from meeting those objectives.
Evaluation reports from consultants or other sources are utilized to monitor and assess program
accomplishments. In summary, the monitoring process appears to be operating as intended.

                                   Grant Proprams Audited

During the period of our audit, the Council received about $27 million under 12 grant awards.
About $24.7 million of this amount was distributed by the Council to subgrantees and about $22.1
million was claimed on the Council's FSRs. The majority of the Council's subgrantees are
nonprofit organizations. A brief synopsis of programs funded by the grants is as follows:

                                                   Funding        Claimed
Program                      Award No.           Authorized         -
                                                                   Costs       Drawdowns

AmeriCorps Competitive
AmeriCorps Competitive
AmeriCorps Competitive
AmeriCorps Forrnula
ArneriCorps Formula
AmeriCorps Education
   Awards                    OOEDSOHO10
AmeriCorps Promise
   Fellows
Homeland Security Special
   Volunteer Prolgram
Administrative
Administrative
Program Development and
   Training (PDAT)
Disability

Totals for Grants Administered
   by the Council**                              $27,042.603   $22.05 8.184   $2 1,184.002

*   Costs were claimed and drawn down under 00ASCOH036.
**   The differences between the amounts claimed and the amounts drawn down are generally due to
     timing issues caused by subgrantees that do not request payment from the Council on a timely
     basis.

                                           Background

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Trust Act, as amended, awards grants and cooperative agreements to State
Commissions and other entities to assist in the creation of full- and part-time national and
community service programs. The Ohio Community Service Council was established by Ohio
Statute in 1994 to administer grants in Ohio under the National and Community Service Trust Act
of 1993. The Council is composed of 13 members appointed by the Governor, and eight State
agencyllegislative representatives. The Council is located in Columbus, Ohio.

The contents of this report were disclosed to and discussed with the Council at an exit conference
held on December 10,2004. In addition, we provided a draft of this report to the Council and to the
Corporation for comment on December 21, 2004 and we received responses from both the Council
and the Corporation on January 20, 2005 and January 21, 2005, respectively. These responses are
included in their entirety as appendices A and B, respectively.
I l h Hungerford Drive, Suite 400
Rockvillc, Maryland 20850
30 1-738-8190
tax: 30 1-738-8210
leonsnead.companypc~(~~erc>1s.com




                                                                      I
         Office of Inspector General
         Corporation for National and Community Service
         Washington, DC 20525


                                    INDEPENDENT AUDITOR'S REPORT

         We have audited the costs incurred by the Ohio Community Service Council (Council) for the
         award numbers listed below. These costs, as presented in the Consolidated Schedule of Award
         Costs, are the responsibility of the Council's management. Our responsibility is to express an
         opinion on the Consolidated Schedule of Award Costs based on our audit.


         Program                        Award No.              Award Period             Audit Period*
         AmeriCorps Competitive         00ASCOH033             01102101-12131103        01/01/02-12131103
         AmeriCorps Competitive         00ASCOH036             0910 1100-03131104       0 1/01/02-03131/04
         AmeriCorps Competitive         03ACHOH00 1            08129103-08128106        08129103-03131/04
         AmeriCorps Formula             00ASFOH036             0910 1100-06/30/04       0 1101102-09/30/03
         AmeriCorps Formula             03AFHOH002             09108103-09107106        09108103-03131104
         AmeriCorps Education
          Award                         OOEDSOHO10
         AmeriCorps Promise Fellows     01APSOH036
         Homeland Security Special
          Volunteer Program
         Administrative
         Administrative
         Program Developrnent and
           Training (PDAT)
         Disability

         * The audit period  ended for each award on the grant expiration date or the date the last financial
         status report was submitted for the grant, whichever was earlier.

         We conducted our audit in accordance with auditing standards generally accepted in the United
         States of America, and in accordance with generally acc pted government auditing standards.


                                                                     i
         Those standards require that we plan and perform the audi to obtain reasonable assurance about
         whether the amounts claimed against the awards, as prese ted in the Consolidated Schedule of
Award Costs and supporting Schedules A-F, are free of maderial misstatement. An audit includes
examining, on a test basis, evidence supporting the amounts and disclosures in the Schedules. An
audit also includes assessing the accounting principles used and significant estimates made by the
management, as well as evaluating the overall financial schedule presentation. We believe our audit
provides a reasonable basis for our opinion.

The accompanying Schedules were prepared to present the costs claimed by the Council and its
subgrantees between January 1, 2002, and June 30, 2004, under 12 grants awarded by the
Corporation, as described in the accompanying Summary of Significant Accounting Policies. The
Schedules were prepared from data submitted by the Council to the Corporation on Financial Status
Reports to comply with provisions of the grant agreements. The Schedules are not intended to be a
complete presentation of Council finances in accordance with accounting principles generally
accepted in the United States of America.

As more fully described in the Schedules, we have questioned costs of $178,931 of anallowable
claimed costs and $25,769 of education awards. Questioned costs are: (1) costs for which there is
documentation that the recorded costs were expended in violation of Federal laws, regulations or
specific conditions of the award, (2) costs that require additional documentation support by the
grantee, or (3) costs that require interpretation of allowability by the Corporation. The terms of the
grant agreement require that all specified supporting documents be retained in order to receive
payment from the Corporation.

In our opinion, except for the costs we have questioned above, the Consolidated Schedule of Award
Costs presents fairly, in all material respects, the costs incurred and reported on the Council's
Financial Status Reports for the period January 1,2002, to June 30,2004, in accordance with OMB,
Circular A-87, Cost Principles for State, Local and Indian Tribal Government, other applicable
OMB circulars and award terms and conditions.

In accordance with the generally accepted government auditing standards, we have also issued our
report, dated October 29, 2004, on compliance with Federal laws, regulations, and significant
provisions of grant agreements, and on internal control over financial reporting.

This report is intended for the information and use of the Office of Inspector General, the
Corporation for National and Community Service, the Council and its subgrantees, and the U.S.
Congress. However, this report is a matter of public record and its distribution is not limited.


~ - & L ~ Y M ~ O A ~ T I                 Prc    '
Leon Snead and Company, P.C.
Rockville, Maryland
October 29, 2004
                          Corporation for National and Community Service
                                 Ohio Community Service Council
                              Consolidated Schedule of Award Costs


                                                                            -
                                                                            Ouestioned
                                       Approved        Claimed        Unsupported Education
 Award No.           Program            Budget          Costs            Costs       Awards       Schedule

00ASCOH033    AmeriCorps Competitive   $    177,559           Note

00ASCOH036    AmeriCorps Competitive       9,874,298   $ 9,163,698        $ 7,199                    A

03ACHOH00 1 AmeriCorps Competitive         1,854,284      1,062,809          8,415      $4,725       B

00ASFOH036    AmeriCorps Formula           9,628,952      8,239,027        103,476       2,171       C

03AFHOH002    AmeriCorps Formula           1,930,991       948,715          23,535                   D

OOEDSOHO10 AmeriCorps Education             294,500        171,894
           Awards

0 1APSOH036 AmeriCorps Promise               159,600        115,770         33,874       18,900      E
            Fellows

02SVHOH012    Homeland Security
              Special Volunteer
              Program                       750,622        422,582              2,432

01SCSOH035    Administrative               1,311,526      1,311,463

04CAHOH00 1 Administrative                  470,7 17       253,65 1

02PDSOH035    PDAT                          524,878        361,059

0 1DSCOHO 12 Disability                      64,676           7,516

 Total                                 $27.042.603      $22.058.184       $178.93 1     $25.796

Note: Costs were claimed under 00ASCOH036.
                                                                            Schedule A



                              Ohio Community Service Council
                          Schedule of Claimed and Questioned Costs
                      Award No. 00ASCOH036 (ArneriCorps Competitive)
                           January 1,2002, through March 31,2004



                               Budgeted          Claimed       Questioned
Submantees
Mercy Health Partners
                                    -
                                Costs
                              $ 820,750
                                                   -
                                                  Costs
                                               $ 717,804
                                                                 Costs              -
                                                                                    Notes

Department of Youth Services    734,306          581,389         $1,554               1
Coalition on Housing and
 Homelessness in Ohio                                                                 2
City Year - Cleveland
City Year - Columbus
Greater Columbus Arts Council
West Side Ecumenical Council
Ohio University (AppalCorps)
Ohio University (Corncorps)

 Total




NOTES:

   1. ArneriCorps Provision B(6)(h) Eligibility, Recruitment and Selection, Criminal Record
      Checks, states that programs with members or employees who have substantial direct
      contact with children or who perform service in the homes of children or individuals
      considered vulnerable by the program, shall, to the extent permitted by State and local law,
      conduct criminal record checks on these members or employees as part of the screening
      process. This provision also states that documentation of criminal record checks must be
      maintained consistent with State law.

         One of 10 ArneriCorps member files reviewed did not contain evidence of a criminal
         records check. This member had substantial contact with children. Because there was no
         evidence of a criminal records check for this member, we are questioning the member's
         eligibility for the program and the $1,554 charged to the grant for the member's living
         allowance. The member resigned from the program on May 15, 2003, after serving only
         47.5 hours. No education award was made to this member.
2. AmeriCorps Provision B(6)(h) Eligibility, Recruitment and Selection, Criminal Record
   Checks, states that programs with members or employees who have substantial direct
   contact with children or who perform service in the homes of children or individuals
   considered vulnerable by the program, shall, to the extent permitted by State and local law,
   conduct criminal record checks on these members or employees as part of the screening
   process. This provision also states that documentation of criminal record checks must be
   maintained consistent with State law.

   One of 10 AmeriCorps member files reviewed did not contain evidence of a criminal
   records check. This member had substantial contact with children. Because there was no
   evidence of a criminal records check for this member, we are questioning the member's
   eligibility for the program and the $4,080 charged to the grant for the member's living
   allowance.

3. AmeriCorps Provisions A(9)(b) Definitions, states that a member must be an individual
   "[wlho is a U.S. citizen, U.S. national or lawful permanent resident alien of the United
   States" and B(6)(a) Eligibility, Recruitment, and Selection, states that a grantee may select
   as a member only those who are eligible to enroll in AmeriCorps.

   One member was ineligible because there was no documentation in the member's file to
   show proof of U.S. citizenship or lawful permanent resident alien status. As a result, we are
   questioning the member's living allowance of $1,565. The member was terminated from the
   program on May 20, 2002, after failing to provide proof of U.S. citizenship. No education
   award was made to this member.
                                                                              Schedule B


                              Ohio Community Service Council
                          Schedule of Claimed and Questioned Costs
                      Award No. 03ACHOH001 (ArneriCorps Competitive)
                         September 29,2003, through March 31,2004


                               Budgeted            Claimed       Questioned
Subgrantees                      Costs              Costs          Costs              -
                                                                                      Notes
Public Allies                 $ 346,324           $21 1,415
Mercy Health Partners           243,075            109,407
City Year-Cleveland             440,000            322,378
West Side Ecumenical Ministry   439,390            224,906         $8,415               4

 Total                            $1.468.789      $868.106         $8.415

Education Award                                                    $4,725               4


NOTE:

   4. ArneriCorps Provision B(6)(h) Eligibility, Recruitment and Selection, Criminal Record
      Checks, states that programs with members or employees who have substantial direct
      contact with children or who perform service in the homes of children or individuals
      considered vulnerable by the program, shall, to the extent permitted by State and local law,
      conduct criminal record checks on these members or employees as part of the screening
      process. This provision also states that documentation of criminal record checks must be
      maintained consistent with State law.

         One of 17 member files reviewed did not contain evidence of a criminal records check. This
         member had substantial contact with children. Because there was no evidence of a criminal
         records check for this member, we are questioning the member's eligibility for the program
         and the $8,415 charged to the grant for the member's living allowance. Also, we are
         questioning this member's education award of $4,725.
                                                                                 Schedule C



                              Ohio Community Service Council
                          Schedule of Claimed and Questioned Costs
                        Award No. 00ASFOH036 (AmeriCorps Formula)
                         January 1,2002, through September 30,2003


                                   Budgeted        Claimed       Questioned
Subgrantees                          -
                                    Costs            -
                                                    Costs             -
                                                                   Costs              Notes
Public Allies                     $ 645,120      $ 615,986       $ 1,625               5
Volunteer Action Center of
 Greater Lorain                      716,836        494,709          101,851        6,7&8
Urban Appalachian Council            489,457        450,329

 Total                                           $1.561.024      $103.476

Education Awards                                                 $     2,171          7&8


NOTES:

   5. AmeriCorps Provision B(14)(b) Member Records and Confidentiality, Verzjkation, requires
      that the grantee maintain verifiable records that document each member's eligibility to serve
      pursuant to the member eligibility requirements. In addition, the AmeriCorps Provision,
      A(9)(b) Definitions, Member, states that a member must be a U.S. citizen, U.S. national or
      lawful permanent resident alien of the United States.

         For one AmeriCorps member, the subgrantee was unable to provide documentation of
         eligibility. Subgrantee representatives stated that they had enrolled the member while
         awaiting a promised proof of U.S. citizenship. This member was terminated for cause when
         the member was unable to provide the required documentation. Since proof of citizenship is
         a basic requirement of the AmeriCorps program, we are questioning the living allowance of
         $1,625 that was charged to the grant for this member during the member's limited term of
         service.

   6. According to AmeriCorps Provision C(21)(a) Financial Management Provisions, financial
      management systems must have a clear audit trail and must be capable of distinguishing
      expenditures attributable to each grant and in compliance with OMB Circular A-1 10 and its
      implementing regulations.       The total reported expenditures agreed with the total
      expenditures in the subgrantee's accounting records. However, the amounts reported by the
      subgrantee on its Periodic Expense Reports in the Web-Based Reporting System (WBRS)
      for the AmeriCorps grant for other member support, staff, and operations, did not agree with
      amounts in the general ledger of the subgrantee's financial management system.
   The reported costs for these line items were based on the Corporation approved budget, but
   no documentation was maintained to permit verification of these costs. As a result, we were
   unable to trace expenditures of $89,521 from the Periodic Expense Reports to the
   subgrantee's general ledger and to underlying supporting documentation. Therefore, we are
   questioning $89,521 of expenditures.

   AmeriCorps Provisions B(14)(a) and B(14)(b) Member Records and Confidentiality, require
   that the grantee maintain verifiable records that document each member's eligibility to serve
   based upon citizenship or lawful permanent residency. For one AmeriCorps member
   serving a second term, the subgrantee was unable to provide the required eligibility
   documentation. This documentation was not available even though the information
   provided to the Corporation's WBRS indicated that it had been obtained. Because the
   required eligibility documentation was not available, we are questioning the member's
   living allowance of $2,915 and the education award of $1,250.

8. AmeriCorps Provision B(6)(h) Eligibility, Recruitment and Selection, Criminal Record
   Checks, states that programs with members or employees who have substantial direct
   contact with children or who perform service in the homes of children or individuals
   considered vulnerable by the program, shall, to the extent permitted by State and local law,
   conduct criminal record checks on these members or employees as part of the screening
   process. This provision also states that documentation of criminal record checks must be
   maintained consistent with State law.

   Four of 10 member files reviewed did not contain evidence of a criminal record check.
   These members had substantial contact with children. Because there was no evidence of
   criminal record checks for these members, we are questioning their eligibility for the
   AmeriCorps program and the $9,415 charged to the grant for their living allowances. Also,
   we are questioning an education award of $921 designated for one of the members. The
   other three members did not receive education awards.
                                                                           Schedule D



                             Ohio Community Service Council
                         Schedule of Claimed and Questioned Costs
                      Award No. 03AFHOH002 (AmeriCorps Formula)
                        September 08,2003, through March 31,2004


                                 Budgeted        Claimed      Questioned
Subgrantees                        -
                                  Costs            -
                                                  Costs         Costs              -
                                                                                   Notes
City Year-Columbus              $ 154,800       $ 16,019
Volunteer Action Center of
 Greater Lorain                     48,217        24,491        $23,535              9
Ohio University (AppalCorps)       372,359       206,423
Ohio University (ComCorps)         191,829       105,347
Urban Appalachian Council          255,960       131,457

 Total                          $1.023.165      $583.737        $23.535



NOTE:

   9. According to ArneriCorps Provision C(21)(a) Financial Management Provisions, financial
      management systems must have a clear audit trail and must be capable of distinguishing
      expenditures attributable to each grant and in compliance with OMB Circular A-1 10 and its
      implementing regulations. Although total reported expenditures agreed with the total
      expenditures in the subgrantee's accounting records, the amounts reported on its Periodic
      Expense Reports in WBRS for the AmeriCorps grant for other member support, staff and
      operations, did not agree with amounts in the general ledger of the subgrantee's financial
      management system. The reported costs for these line items were based on the Corporation
      approved budget, but no documentation was maintained to permit verification of these costs.
      As a result, we were unable to trace expenditures of $23,535 from the Periodic Expense
      Reports to the subgrantee's general ledger and to underlying supporting documentation.
      Therefore, we are questioning $23,535 of expenditures.
                                                                                  Schedule E



                             Ohio Community Service Council
                         Schedule of Claimed and Questioned Costs
                         Award No. 01APSOH036 (Promise Fellows)
                          January 1,2002, through June 30,2004


                                  Budgeted        Claimed       Questioned
Subgrantee                          -
                                   Costs            -
                                                   Costs           -
                                                                  Costs               -
                                                                                      Notes
Volunteer Action Center of
 Greater Lorain                     $37,786        $33,874        $33,874               10


Education Awards                                                  $18,900               10




NOTES:

   10. AmeriCorps Promise Fellows Provision B(6)(a) Member Eligibility, Recruitment, and
       Selection, Eligibility to Enroll, states that the grantee is responsible for obtaining and
       maintaining adequate documentation to demonstrate the eligibility of members. There were
       no member files available to document the eligibility of three promise fellows in Program
       Years 2002 and 2003. The program director stated that the member files disappeared before
       he was appointed to his current position. Because of the lack of documentation regarding
       eligibility of the promise fellows, we are questioning the entire cost of their participation
       that was charged to the grant for Program Years 2002 and 2003. Also, we are questioning
       four education awards of $4,725 each made to members who completed the Promise Fellow
       Program (one member served two terms and received two education awards). We are
       questioning the living allowances totaling $33,874 for these three members and the four
       education awards totaling to $18,900.
                                                                             Schedule F


                             Ohio Community Service Council
                         Schedule of Claimed and Questioned Costs
                        Award No. 02SVHOH012 (Homeland Security)
                        September 1,2002, through February 29,2004


                                  Budgeted        Claimed       Questioned
Subgrantee                          -
                                   Costs            -
                                                   Costs          Costs               Notes
Volunteer Action Center of
 Greater Lorain  J




NOTES:

   11. According to AmeriCorps Provision C(21)(a) Financial Management Provisions, financial
       management systems must have a clear audit trail and must be capable of distinguishing
       expenditures attributable to each grant and in compliance with OMB Circular A-1 10 and its
       implementing regulations.       Although total reported expenditures agreed wlth total
       expenditures in the subgrantee's accounting records, the amounts reported for the homeland
       security grant for some budget line items (such as equipment, supplies and other costs) could
       not be traced to the subgrantee's general ledger. According to the subgrantee's accountant,
       expenditures recorded in the accounting records were manually shifted between expense
       categories, based on budgeted amounts. However, documentation was not maintained to
       permit verification of these costs. As a result, we were unable to trace expenditures of
       $2,432 from the requests for payment to the general ledger and to the underlymg supporting
       documentation. We are questioning the $2,432.
                        Corporation for National and Community Service
                                Ohio Community Service Council
                         Notes to Consolidated Schedule of Award Costs

Summarv of Significant Accounting Policies

Reporting Entity

The accompanying Consolidated Schedule of Award Costs includes amounts budgeted, claimed,
and questioned under AmeriCorps, Homeland Security Special Volunteer Program, Administrative,
PDAT and Disability grants awarded to the Ohio Community Service Council (Council) by the
Corporation for National and Community Service (Corporation) for the period January 1, 2002,
through June 30,2004.

The Council awards its AmeriCorps grant funds to numerous subgrantees that administer the
AmeriCorps Program and report financial and programmatic results to the Council.

Basis of Accounting

The accompanying Schedule has been prepared to comply with the provisions of the grant
agreements between the Corporation and the Council. The information presented in the Schedule
has been prepared from financial reports submitted by the Council to the Corporation. The basis of
accounting used in preparation of these reports differs slightly from accounting principles generally
accepted in the United States of America as follows:

Equipment

Equipment is charged to expense in the period during which it is purchased instead of being
recognized as an asset and depreciated over its useful life. As a result, the expenses reflected in the
Consolidated Schedule of Award Costs include the cost of equipment purchased during the period
rather than a provision for depreciation. The equipment is owned by the Council and is used in the
program for which it was purchased or in other future authorized programs. However, the
Corporation has a reversionary interest in the equipment. Its disposition, as well as the ownership
of any proceeds therefrom, are subject to Federal regulations.

Inventory

Minor materials and supplies are charged to expense during the period of purchase.
416 Hungerford Lhve, Suite 400
Kockv~lle,Maryland 20850
XlI-7?8-8190
f a k 301-738-8210
leonsnead cvmpanyyc(wrols corn




         Office of Inspector General
         Corporation for National and Community Service
         Washington, DC 20525


               INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND ON INTERNAL
                           CONTROLS OVER FINANCIAL REPORTING


          We have audited the Consolidated Schedule of Award Costs that summarize the claimed costs of
          the Council under the Corporation awards listed below, and have issued our report thereon, dated
          October 29,2004.

          Program                         Award No.              Award Period              Audit Period*
          AmeriCorps Competitive          00ASCOH033             01102101-12/31/03         01/01/02-12131/03
          AmeriCorps Competitive          00ASCOH036             09/01/00-03131lo4         01/01/02-03131/04
          AmeriCorps Competitive          03ACHOH001             08129103-08128106         08/29/03-03131/04
          AmeriCorps Formula              00ASFOH036             0910 1100-06130104        01101102-09/30/03
          AmeriCorps Formula              03AFHOH002             09108103-09/07/06         09108103-03131104
          AmeriCorps Education
           Award                          OOEDSOHO10
          AmeriCorps Promise Fellows      01APSOH036
          Homeland Security Special
           Volunteer Program              02SVHOHO12
          Administrative                  01SCSOH035
          Administrative                  04CAHOH00 1
          Program Development and
            Training (PDAT)               02PDSOH035
          Disability                      OlDSCOH012


          * The audit period for each award ended on either the grant expiration date or the date the last
          financial status report was submitted for the grant, whichever came earlier.

          We conducted our audit in accordance with auditing standards generally accepted in the United
          States of America and generally accepted government auditing standards.
                                          COMPLIANCE

Compliance with Federal laws, regulations, and the provisions of the awards is the responsibility of
the Council's management. As a part of obtaining reasonable assurance about whether the financial
schedules are free of material misstatement, we performed tests of compliance with certain
provisions of laws, regulations, and the terms and conditions of the awards, noncompliance with
which could have a direct and material effect on determination of the financial schedule amounts.
However, our objective was not to provide an opinion on overall compliance with such provisions.
Accordingly, we do not express such an opinion. The results of our tests of compliance disclosed
the following instances of noncompliance that are required to be reported under generally accepted
government auditing standards.

Finding No. 1 - Grants Were Not Closed In A Timely Manner

The Council did not submit, in a timely manner, final financial reports for four of five grants due for
closeout during our audit period. These grants were:

                                                      Date Due       Date Submitted
00ASCOH036 ArneriCorps Competitive                    613 1104       9/7/04
00ASFOH036 AmeriCorps Formula                         9130104        not submitted as of 10119104
01SCSOH035 Administrative                             313 1104       8131104
OOEDSOHO10 AmeriCorps Education Award                 313 1I04       not submitted as 10/19/04

Financial accountability controls at the Corporation level are weakened when final financial reports
are not submitted in a timely manner. To ensure that grant funds are being spent for the intended
purposes, and in accordance with grant conditions, timely accounting is necessary. When
accounting controls are weakened, it becomes easier to circumvent established processes.

AmeriCorps Provision B(16)(a)(iv) Reporting Requirements, states that a grantee completing the
final year of its grant must submit, in lieu of the last semi-annual Financial Status Report (FSR), a
final FSR that is cumulative over the entire project. It must be submitted within 90 days after the
end of the grant. For the education grant, AmeriCorps Education Award Program Provision
B(16)(c) Reporting Requirements, states that a grantee completing the final year of its grant must
submit, in addition to the Progress Report due November 3oth, a Final Project Report that is
cumulative, covering the entire project period. The Final Project Report is due within 90 days after
the end of the grant period.

The delay in submitting the final FSR for the AmeriCorps Competitive and Formula grants was
caused by subgrantee members who took additional time to complete their terms of service. This
additional service time extended beyond the completion date of the grant. The final FSR for the
administrative grant was delayed due to negotiations with the Corporation regarding allocation of
certain costs between the PDAT and administrative grants. The Final Project Report for the
education grant was not submitted due to oversight.
Recommendation

We recommend that the Council request written time extensions to their grants when formal
closeout cannot be completed within the required time periods.

Council's Response

The Council concurred and agreed to request formal extensions in all cases where closeout cannot
be accomplished within 90 days of the original or extended grant term.

Auditor's Comments

We consider the response to be adequate.

Finding No. 2 - Subgrantee Files Were Not In Compliance With Program Requirements

Member files at five of the 12 subgrantees visited were incomplete or missing. At one subgrantee,
there were no member files available to document the eligibility of three promise fellows in
Program Years 2002 and 2003. Eighteen of the 165 member files reviewed at the 12 subgrantees
did not contain all of the required documentation; nine of those files lacked documentation to verify
that the member was eligible to participate in the program. Documentation that was missing,
incomplete, or not filed in a timely manner included proof of citizenship, enrollment forms, member
agreements, position descriptions, evidence of criminal record checks for members who had contact
with children, evaluations, and exit forms. As a result, the Council could not always verify that
member eligibility requirements were being met. In order to ensure that grant funds are used for the
purpose intended, it is important to verify that only qualified members have been allowed to serve.

AmeriCorps Provision B14(b) Member Records and Conjdentiality, requires that the subgrantee
maintain verifiable records that document each member's eligibility to serve pursuant to the
member eligibility requirement. AmeriCorps Provision B16(b)(iii) Reporting Requirements, states
that exit and lend-of-term- service forms must be submitted no later than 30 days after a member
exits the program or finishes his or her term of service. Hard copies of these forms must be
maintained after they have been entered into WBRS.

These conditions occurred because: 1) program managers had large workloads, 2) members failed
to provide information they promised during the enrollment process, and 3) one member resigned
before the criminal records check had been requested.

Recommendation

We recommend that the Council continue to train and monitor its subgrantees on obtaining
complete documentation of member eligibility before enrollment and on maintaining all required
documentation in individual member's files.
Council's Response

The Council stated that its ongoing training and technical assistance to subgrantees will continue to
emphasize the importance of compliance in the area of member eligibility and file documentation,
and its monitoring efforts will be used to identify and correct chronic issues of noncompliance.
However, the Council took exception with the issue of relating member eligibility and criminal
record checks. It maintains that there is no link between the procedural requirement for record
criminal checks and the definition of member eligibility in Special Provision A(14). Therefore, it
believes missing criminal record checks should be cited as a compliance finding only, with no
associated questioned cost.

Auditor's Comments

Since the Council does not dispute the basic facts supporting the finding and recommendation, they
remain unchanged.

                  INTERNAL CONTROL OVER FINANCIAL REPORTING

In planning and performing our audit of award costs as presented in the Consolidated Schedule of
Award Costs for the period January 1, 2002, through June 30, 2004, we considered the Council's
internal control in order to determine our auditing procedures for the purpose of expressing our
opinion on the financial schedules and not to provide assurance on the internal control.
Accordingly, we do not express such an opinion.

The Council's management is responsible for establishing and maintaining internal control. In
fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs of internal control policies and procedures. The objective of
internal control is to provide management with reasonable, but not absolute, assurance that assets
are safeguarded against loss from unauthorized use or disposition. Internal control also provides
assurance that transactions are executed in accordance with management's authorization and
recorded properly to permit the preparation of the financial schedules in accordance with accounting
principles generally accepted in the United States of America. Because of inherent limitations in
any internal control, errors or irregularities may nevertheless occur and not be detected. Also,
projection of any evaluation of the internal control to future periods is subject to the risk that
procedures may become inadequate because of changes in conditions or that the effectiveness of the
design and operation of policies and procedures may deteriorate.

Our consideration of internal control would not necessarily disclose all matters of internal control
over financial reporting that might be reportable conditions and, accordingly, would not necessarily
disclose all reportable conditions that are also considered to be material weaknesses. Under
standards established by the American Institute of Certified Public Accountants, reportable
conditions are matters coming to our attention relating to significant deficiencies in the design or
operation of the internal control. In our judgment, the significant deficiencies could adversely
affect the Council's ability to record, process, summarize and report financial data consistent with
the assertions made by management in the financial schedules. We noted the following matters that
we considered to be reportable conditions.
Finding No. 3 - A Written Accounting Manual Is Needed

The Council does not have a formalized written accounting manual. In addition, only one employee
has full knowledge and understanding of the operation of the Council's financial management
system. If that employee left the agency, the Council could find it difficult to effectively operate its
financial management system. This could adversely affect the Council's ability to record, process,
summarize and report financial data relating to Corporation grants.

The financial management system was developed and is operated by one Council employee.
Management indicated that the employee had not had sufficient time to develop and operate the
system and complete a formalized written accounting manual.

Recommendation

We recommend that the Council develop a written accounting manual for employees that fully
describes its accounting procedures.

Council's Response

The Council agreed that only one individual has full knowledge of the financial management
system and that a written manual is needed to document the steps for recording, processing, and
reporting financial data. It has established a goal to ensure that a written accounting manual is in
place by the end of the 2005 Program Year.

Auditor's Comments

We consider the response to be adequate.

Finding No. 4 - Subgrantee's Financial Management System Did Not Have Sufficient
               Audit Trails

One of the subgrantees selected for review did not have a financial management system that was
adequate to trace the expenditures to the underlying supporting documentation.

The Volunteer Action Center of Greater Lorain's accounting system did not, except for member
support costs, maintain cost accounts that parallel those of the AmeriCorps grant programs.
Although total reported expenditures agreed with total expenditures in the subgrantee's accounting
records, the amounts reported for some budget line items (such as other member support, staff and
operations) did not agree with amounts in the general ledger of the subgrantee's financial
management system. According to the subgrantee's accountant, expenditures recorded in the
accounting records were manually shifted between Periodic Expense Report categories, based on
budgeted amounts when preparing the Periodic Expense Report. However, documentation was not
maintained to verify the source of costs reported by budget line item. As a result, the subgrantee's
financial management system does not provide an audit trail to trace expenditures from Periodic
Expense Reports to the subgrantee's accounting system and to the underlying supporting
documentation.

According to ArneriCorps Provision C(21)(a) Financial Management Provisions, financial
management systems must have a clear audit trail and must be capable of distinguishing
expenditures attributable to each grant and in compliance with OMB Circular A-1 10 and its
implementing regulations.

The Council identified problems with the subgrantee's financial management system during a desk
review in November 2002. However, there was no evidence to show that a follow-up site visit was
made to assure that action was taken to correct the problem.

While the Council does have a financial monitoring review program, these reviews are primarily
desk reviews performed in response to questionnaires. This method of reviewing the adequacy of
financial management systems is probably adequate to identify potential problems for the more
sophisticated subgrantees. However, on-site reviews may be needed to address known problem
situations and less sophisticated subgrantees.

Recommendation

We recommend that the Council implement a process for adjusting its monitoring schedule to
perform more timely on-site reviews of subgrantees that have identified weaknesses in their
accounting systems.

Council's Response

The Council acknowledged that the subgrantee's financial management system was inadequate, in
that the subgrantee should have had a documented procedure to translate costs recorded in its
financial management system. The Council maintained that, since the total amounts reported on the
subgrantee's Financial Status Reports agreed with the totals in its financial management system, the
claimed amounts should be allowed.

Auditor's Comments

The Council's response does not address the basic issue that more follow-up, on-site reviews of
subgrantees are needed to assure action is taken to correct identified weaknesses in subgrantees'
accounting systems. In this case, we were provided no documentation to show that a follow-up visit
had been made to assure that action had been taken to address the system weakness identified
during a desk review by the Council in November 2002.

The Council agrees that the subgrantee's financial management system was inadequate, but
maintained that the claimed amounts should be allowed. Since the subgrantee was unable to
provide documentation to support the amounts claimed on its Financial Status Reports, the finding
and recommendation remain unchanged.
Finding No. 5 - Subgrantee Had Inadequate Separation Of Financial Duties

One of the twelve subgrantees reviewed did not maintain an adequate separation of financial duties.

At the Public Allies program operation office in Ohio, one person made purchases, approved
invoices and signed checks. At its national office in Wisconsin, which handles most of the financial
activities, one person reconciled the bank account, handled cash receipts and prepared and signed
checks. Because of the lack of separation of duties, the potential for misappropriation of grant
funds is increased.

Key duties such as authorizing, approving, and recording transactions and making payments should
be assigned to separate individuals to minimize the risk of loss to the Federal government.
According to OMB Circular A-1 10, C(21)(b)(3) Financial and Program Management, financial
management systems must have effective control and accountability over all grant funds and assets.

Recommendation

We recommend that the Council work with the subgrantee to ensure that adequate separation of
financial duties exists at both the program and financial operation levels.

Council's Response

The Council agreed that the subgrantee lacked proper separation of financial duties for a portion of
the period under review, but believed that the subgrantee had taken steps to address the problem.
The Council stated that future financial reviews will provide assurance that the implemented
changes are working properly.

Auditor's Comments

The subgrantee had not taken steps to provide for proper separation of financial duties at the time of
our review; therefore, the finding and recommendation remain unchanged.
                              Ohio Community Service Council
                          Follow-up on Prior Audit Report Findings
                          OIG Audit Report No. 03-05, Incurred Cost
                                    of Grants Awarded



Cotton & Company, LLP, conducted a prior audit of the Council and issued a report to the
Corporation on September 30,2003. Although final management decisions have not been made on
the recommendations included in that report, various actions have been taken by the Council to
address the findings and improve its grant management system.

Here is a summary of the current status of the prior audit findings:

Finding No. 1 and Recommendation. The prior audit reported that the Council's Financial
Management System was inadequate and recommended that the Council use the Ohio State
Department of Aging's records as the official accounting records and prepare supplemental records
as needed to track budget information.

Proposed Management Decision: The Corporation and Council agree that the Council's financial
records need to reconcile to the Ohio Department of Aging's records. However, the Central
Accounting System used by the Department of Aging cannot be utilized as the official record
because it does not provide the detail necessary to track grant budgets by calendar year. The system
also does not allow for grant budgeting and budget categories that parallel those used by the
Corporation. The Council has implemented Phase I1 of its Financial Management System that
reconciles to the Central Accounting System. The two systems are linked electronically. The
Corporation reviewed a copy of the policy instructions for maintenance of data in the Council's
Financial Management System and confirmed that the key elements of an electronic accounting
system are contained in the policy.

Current Status: Our evaluation indicated that the Council has implemented a new Financial
Management System since the prior audit. The system can track and report the receipt and
disbursement of grant funds, and the internal control procedures are adequate.

Finding; No. 2 and Recommendation. The prior audit reported that the Council had inadequate
segregation of financial management duties and recommended that the Council separate the duties
of authorizing, approving, and recording transactions. The audit also recommended that the director
of internal operations be prohibited from signing, under any circumstances, the executive director's
name on documents.

Proposed Management Decision: In April 2003, the Council restructured job duties within the office
to segregate duties that were previously performed solely by the director of internal operations.
Voucher initiation is now delegated to the program assistant and the executive secretary. Approval
of subgrantee transactions is now assigned to the grants officer. The director of internal operations
continues to approve transactions initiated by the executive secretary.
Current Status: Our evaluation of the financial duties of the Council's staff found that they were
being performed in accordance with the response to the prior audit findings, and the compensating
controls made by the Council have improved its internal control system.

Finding No. 3 and Recommendation. The prior audit reported that the Council's procedures for
distributing salaries and wages were inadequate and recommended that the Council revise its
procedures to comply with requirements in OMB Circular A-87.

Proposed Management Decision: The Corporation and the Council agreed with the
recommendation. In March 2003, the Council revised its system for distributing salaries and wages
and entered all staff time for the period January 2001 through March 2003. The Council continues
to use this system for salaries and wages.

Current Status: We reviewed the process and concluded that it is in compliance with OMB Circular
A-87.

Finding No. 4 and Recommendation. The prior audit reported that the Council and certain
subgrantees claimed unallowable and unsupported costs and recommended that the Corporation
follow up with the Council to determine if those amounts should be disallowed and recovered.

Proposed Management Decision: The Corporation's follow-up is inherent in the audit resolution
process and documented in this management decision.

Current Status: The resolution of questioned costs has not been completed and, therefore, we did not
follow up on the resolution of questioned costs at individual subgrantees.

Finding No. 5 and Recommendation. The prior audit recommended that the Council implement
procedures to ensure the timely submission of all Financial Status Reports and grant closeout
documents by subgrantees.

Proposed Management Decision: The Council agreed with this recommendation and implemented
policies/practices to curb late reporting by subgrantees. Corrective actions included (i) distributing
past due notices, (ii) withholding payments to subgrantees pending submission of overdue reports,
and (iii) considering subgrantee reporting records in the process of renewing grant funding.

Current Status: The work we performed at selected subgrantees found that they were submitting
Financial Status Reports and grant closeout documents in a timely manner. However, the Council
itself still does not always timely submit final financial reports to the Corporation to close out its
grants.

Finding No. 6 and Recommendation. The prior audit reported that certain subgrantees did not
comply with program requirements and recommended that the Council strengthen its program
monitoring procedures to ensure the requirements of 45CFR 2541.400(a) were met.

Proposed Management Decision: The Corporation agreed that monitoring by the Council needed to
be strengthened to ensure that subgrantees were taking corrective action on noncompliance issues
and that the Council was following up to ensure that the issues were resolved. The Council agreed
to review its monitoring policy and procedures, especially its feedback mechanisms to alert
subgrantees of areas of noncompliance and a system for followup to make sure the problems were
resolved.

Current Status: The Council has made improvements in its monitoring and follow-up process.
While we still found some instances of noncompliance with program requirements by subgrantees,
we believe that the Council's recent emphasis on subgrantee monitoring will further improve
program operations.

Finding No. 7 and Recommendation. The prior audit reported that certain subgrantees did not
comply with record-retention policies. The report recommended that the Council take steps to
ensure that all subgrantees are informed of, and comply with, the Corporation's record-retention
requirements by incorporating record-retention requirements in its subgrantee agreements and by
providing training and education to all subgrantees.

Proposed Management Decision: The Corporation agreed and the Council included the record-
retention requirement in its grant provisions and now highlights this grant provision at its annual
subgrantee orientation. Also, the Council's monitoring policies require staff to review subgrantees'
record-retention policies during site visits. The requirement is also reiterated in instructions
provided to subgrantees for closeout of annual budgets.

Current Status: Our review found that the Council had emphasized the record-retention guidelines
by informing its subgrantees of such requirements (i) at yearly orientation meetings, (ii) in
supplementary provisions to each grant document, and (iii) in program year completion notices to
each subgrantee. However, during our review of subgrantees, we noted that one subgrantee was
unable to provide records for three of its former program members.

Finding No. 8 and Recommendation. The prior audit reported that the Council did not adequately
monitor subgrantees. It recommended that the Council review its financial monitoring procedures
and revise them as necessary to ensure that all significant grant financial requirements are
communicated to subgrantees, that subgrantees comply with these requirements on a consistent
basis, and that follow up procedures are in place to ensure that deficiencies identified by the Council
are resolved in a timely manner.

Proposed Management Decision: The Corporation agreed that a strong monitoring system would
preclude the same deficiencies from existing for several consecutive years. The Corporation agreed
to review the Council's monitoring policy procedures during an upcoming visit and to provide
training and technical assistance, as necessary.

Current Status: Our review of the Council's financial monitoring procedures found them to be
adequate to identify problems. However, additional efforts may be needed to resolve problems
when found. When significant problems are identified, further on-site monitoring may be required
to assure that subgrantees are correcting these problems.
Finding No. 9 and Recommendation. The prior audit reported that the Council inadequately
documented its approval and disapproval of subgrantee grant funding. The auditors further
recommended that the Council develop and implement policies and procedures for the approval and
disapproval of grant funding.

Proposed Management Decision: The Corporation has reviewed the procedures followed by the
Council to select officials to review grant applications. The Corporation also recommended that the
Council add a requirement that rating sheets used in all grant application reviews be retained until
the next funding recommendation period.

Current Status: Our review found that the Council's process was adequate for selecting and
documenting its approval of subgrantees.

Finding No. 10 and Recommendation. The prior audit reported that certain subgrantees were
providing partial education awards to members without adequate justification. It recommended that
the Council provide training to its subgrantees to ensure they understand the requirements for partial
education awards.

Proposed Management Decision: The Corporation agreed that program directors are responsible for
understanding the standards for awarding partial education awards, based on compelling personal
circumstances, and that the Council needs to ensure that program directors follow these standards.

Current Status: The Council provides yearly training to subgrantees on the AmeriCorps provisions
relating to partial education awards. In addition, the Council has included in its supplementary
provisions a requirement that subgrantees obtain Council approval before providing any partial
education awards to members.

This report is intended for the information and use of the Office of Inspector General, the
Corporation for National and Community Service, the Council and its subgrantees, and the U.S.
Congress. However, this report is a matter of public record and its distribution is not limited.


L*l_=;-p-eC73MPA
              d7 /                         3, C
Leon Snead and Company, P.C.
Rockville, Maryland
October 29,2004
                 Appendix A

Response of the Ohio Community Service Council
        OHIO
 COMMUNITY SERVICE
     COUNCIL
  51 N. High Street            January 20,2005
     Suite 800
Columbus, Ohio 43215           Ms. Carol Bates
Phone: 614/728-2916            Acting Inspector General
  Fax: 614/728-2921            Corporation for National and Community Service
 www.serveohio.org             1201 New York Avenue, NW, Suite 830
                               Washington, DC 20525

                               Dear Ms. Bates:

                               Attached is the formal response of the Ohio Community Service Council
                               to Audit Report Number 05-13, prepared by Leon Snead & Company,
                               P.C.

                               The Ohio Community Service Council is committed to continuous
                               improvement. Staff and Council members will seriously consider the
                               recommendations of the audit firm and make appropriate changes where
                               needed. I feel confident that all audit issues will be successfully resolved
                               during the audit resolution process with CNCS staff.

                                Thank you for the assistance provided by the Office of the Inspector
                                General throughout the audit process.

                                Sincerely,



                                ~ i e c u t i v eDirector




                 Strengthening Ohio's Communities through Service and Volunteerism
                             Ohio Community Service Council

                                   Response to Audit Report No. 05-13

                                    Audit conducted b-y Leon Snead & Company, P C
             011   behnlfof the Inspector General of the corporation for National and Communi[v Service



Finding No. 1 - Gtant Closeouts Were Not Submitted Timely

The audit correctly cites delinquent closeouts on four awards. We point out, however, that in all
but one such case we had been in active communication with the grants office regarding the
status of the reports. Formal extensions had, in fact, been requested on two of the awards, but we
had not requested written amendments to the extension periods when it became apparent that
additional time would be required for members to complete terms of service.

Nevertheless, we concur with and will implement the audit recommendation to request formal
extensions in all cases where closeout cannot be accomplished within 90 days of the original or
extended grant term.


Finding No. 2 - Subgrantee Files Were Not In Compliance With Program Requirements

Only 18 of the 165 member files reviewed were determined to be missing documentation, and 1 1
of the noncompliant files were at one subgrantee. This demonstrates that the Council's training
and monitoring practices relative to member eligibility and file documentation are generally
effective. Ongoing training and technical assistance to subgrantees will continue to emphasize
the importance of compliance in this area and monitoring efforts will be used to identify and
correct chronic issues of noncompliance.

Weaknesses cited by the auditors fell into three categories:

    (a) No m e m b r files (8 instances cited, 1 subgrantee). This clearly is a serious problem.
        Prior to the audit our monitoring efforts had identified numerous issues with this
        subgrantee (Volunteer Action Center). In PY 2003-2004, the Council transitioned this
        program fi-om an operational status to a planning status to work with thein more closely
        on issues of program development, member service opportunities, performance
        ineasurenvent and general compliance. Despite these efforts, the Council concluded
        (prior to the audit) that significant progress was not made by the subgrantee, prompting
        a decision to eliminate funding at the end of the 2004 program year.

    (b) Missing cptizenship documentation (4 instances cited, 3 subgrantees). While properly
        cited by the audit, we see no indication of a significant or chronic problem represented
        by these cgses.
   (c) Missing b@ckground checks (6 instances cited, 4 subgrantees). The Council takes
       exception with the findings related to member eligibility and criminal background
       checks. AdneriCorps Special Provision 7YB.6.h states:

           Programs with members or enlployees who have substantial direct contact with children (as
           defined b3/ state law) or who perform service in the homes of children or individuals considered
           vulnerable by the program, shall, to the extent permitted by state and local law, conduct criminal
           record checks on these members or employees as part of the screening process.

       However, there is no link between this procedural requirement and the definition of
       member eligibility in Special Provision A.14, nor has such a link been established in
                 nce from the Corporation or historical practice. For this reason, missing
                  checks should be cited as a finding only, with no associated questioned costs
                 ications for member education awards.

       Furthern~ore,we formally request that the Corporation revise its grant provisions and
       issue apprapriate guidance if there has been a change in policy regarding background
       checks. The Council recently conimissioned a working group (a program officer and
       several program directors) to examine the most efficient and cost effective ways for our
       AmeriCorps programs to conduct background checks; it is crucial that they know the
       intent of the Corporation on this issue prior to releasing their report.

To address these flndings regarding missing member documentation the Council will work with
its subgrantees duding the resolution phase to locate missing documents and provide them to the
Corporation for review. Further, we will revise our training and monitoring efforts to forestall the
practice, noted by the auditors, of subgrantees allowing members to commence service while
eligibility docunlelntation remains pending. Finally, we note here for the record that the
Volunteer Action Center of Greater Lorain County has ceased operations, which may impact our
ability to obtain missing documentation and/or collect disallowed costs. We have previously
advised the Corpwation of this development and our efforts to ensure the maintenance of
subgrantee memba and fiscal files.


Finding No. 3
Management System
                   -
                 Council Lacks A Written Accounting Manual For Its Financial


The audit found nr, issues with the structure, operation, or reliability of the Council's Financial
Management Syslem, which ties together data from Council budgets, the State of Ohio
accounting systenh, and in-kind sources. However auditors correctly noted that only one
employee has full knowledge and understanding of the system, leaving the Council vulnerable in
the event that he dhould leave the agency or suffer an extended illness. The Council concurs in


                   1
the assessment th t a written manual is needed to document the steps for recording, processing,
and reporting film cia1 data. This was documented as a written goal for 2004. Unfortunately
resolution of the rior audit and participation in this audit forced us to postpone the goal to the
2005 program year. The Council's Administration Committee will monitor progress on this goal
to ensure that a wittell accounting manual is in place by the end of the year.
Finding No. 4 - Subgrantee's Financial System Did Not Have Sufficient Audit Trails

The audit noted a weakness in the financial system used by Volunteer Action Center of Greater
Lorain County (VAC), in that amounts reported by budget category on quarterly periodic
expense reports did not reconcile to objects of expenditure in the subgrantee's financial system.
This problem had been recognized by the Council as a result of a 2003 financial monitoring
review. VAC had disputed the finding stating a recent A-1 33 audit found no problems with their
handling of federal funds and the total expenditures reported agreed with the total expenditures
in their accounting records. Therefore, as a follow up to the initial assessment, and prior to
placing the organization on probation and suspending payments, VAC was allowed to provide
additional documentation to show compliance. At the time of the audit, the documentation was
under review by OCSC staff.

We agree with the auditor's assessment that the financial system used by Volunteer Action
Center is inadequate, in that the subgrantee should have a documented procedure or "bridge" to
translate costs recorded in its financial system into the budgetary lines used by the Corporation.
However, we disagree with the auditors' decision to question all costs reported by VAC. The
grant budget is      management tool. not a complii&e tool, as indicated in the fact that
AmeriCorps Special Provision B. 15.c gives subgrantees significant discretion to reallocate funds
among individual budget lines. It is the financial status report (FSR) that is the definitive fiscal
reporting tool. and the FSR requires only that costs be segregated as to member costs vs. other
costs and federal costs vs. match costs. According to the audit report, the amounts reflected on
FSR's did reconcile to the VAC financial system and should therefore be allowed.



Finding No. 5 - Subgrantee had Inadequate Separation of Financial Duties

The audit correctly noted that for a portion of the period under review, Public Allies' financial
system lacked proper separation of financial duties. This had also been noted in the Council's
financial monitoring review of the organization and was due to changes in progress regarding
local vs. national management of fiscal duties. The organization took steps to address this
problem by implementing Council reconmiendations in 2003. Future financial reviews will
provide assurance that the changes implemented are working properly and that adequate
segregation of financial duties continues to exist at the local and national levels.
                         Appendix B

Response of the Corporation for National and Community Service
                                                         I
To:          Carol Bates, Acting 1nspectar)Zeneral
                 /
                1 /'
                 ,//&'/d   c c--.'"   L   I
                                                 :F'&
                                                ,,  <,/LC      L+ [&       .-.-,
From:        Margaret Roserherry, Director of Grants Mwagement

Cc:          Andrew Kleine, Acting Chief Financial Officer
             Rosie Mauk, Director of AmeriCorps
             Tory Willson, Audit Resolution Coordinator

Date:         January 2 1,2005

Subject:      Response to OIG Draft Audit Report 05-13, Incurred-Cost Audit of Grants
              Awarded to the Ohio Community Service Council

We have reviewed the draft Incurred-Cost Audit of Grants awarded to the Ohio
Community Service Council. Due to the limited timeframe for response, we have not
thoroughly reviewed the report nor have we discussed it with the grantee. We will
respond to all findings and recommendations when the audit is issued and we have
reviewed the findings in detail.




                       1201 New York Avenue, NW + Washington, DC 20525
                                                     *
                             202-606-5000 www.nationalservice.org
                                                                                       Freedom Corps
                       Senior Corps           * AmeriCorps * Learn and Serve America   The Residenl's Call to service
